          OFFICE OF INSPECTOR GENERAL

                                   Catalyst for Improving the Environment



Evaluation Report


          Substantial Progress Made,
          But Further Actions Needed in
          Implementing Brownfields Program

          Report No. 2004-P-0020

          June 21, 2004




                                                                     After




 Before
Report Contributors:                             Carolyn Copper
                                                 Katherine Beam
                                                 Chad Kincheloe
                                                 Kevin Morris
                                                 Kevin Ross




Abbreviations

CERCLA          Comprehensive Environmental Response, Compensation, and Liability Act

CERCLIS         Comprehensive Environmental Response, Compensation, and Liability
                Information System

EPA             Environmental Protection Agency

FTE             Full-Time Equivalent

FY              Fiscal Year

OBCR            Office of Brownfields Cleanup and Redevelopment

OIG             Office of Inspector General

OTIS            Online Tracking Information System

PCB             Polychlorinated Biphenyls

RCRA            Resource Conservation and Recovery Act

RLF             Revolving Loan Fund




Cover Photo:    In Bridgeport, Connecticut, a brownfields pilot grant helped leverage the
                resources needed to redevelop the former Jenkins Valve Site (left) into a
                baseball stadium (right). (Photos courtesy of EPA.)
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                          June 21, 2004

MEMORANDUM

SUBJECT:       Substantial Progress Made, But Further Actions Needed in Implementing
               Brownfields Program
               Report No. 2004-P-0020

FROM:          Nikki L. Tinsley
               Inspector General

TO:            Thomas Dunne
               Acting Assistant Administrator
               Office of Solid Waste and Emergency Response

This is our final report on the subject review conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determination on matters in the report will be made by
EPA managers in accordance with established resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 days of the date of this report. You should include a corrective actions plan for
agreed upon actions, including milestone dates. We have no objections to the further release of
this report to the public.

If you or you staff have any questions, please contact Kwai Chan, Assistant Inspector General for
Program Evaluation, at (202) 566-0827.




                                             Nikki L. Tinsley
                    Executive Summary
Purpose
          Under the Small Business Liability Relief and Brownfields Revitalization Act,
          signed in 2002, Congress mandated the Office of Inspector General (OIG) of the
          Environmental Protection Agency (EPA) to report on the management of the
          brownfields program, including allocation of funds. This mandate specifies the
          OIG focus on §104(k) (Subtitle A) of the Comprehensive Environmental
          Response, Compensation, and Liability Act, which authorizes increased funding
          to EPA to award brownfields assessment, cleanup, and revolving loan fund grants.

          Brownfields are defined as real property, the expansion, redevelopment, or reuse
          of which may be complicated by a hazardous substance, pollutant, or contaminant.
          This can apply to a wide variety of sites, including industrial properties, former
          gas stations, warehouses, and residential buildings. While there has not been a
          precise count of the number of brownfields sites in the United States, estimates
          range from 450,000 to as many as a million. For this review, the first of two on
          the management of brownfields, we addressed the following questions:

          •   How has the brownfields program implementation effort proceeded during the
              first year and how effective has it been in instituting major program
              components? What process did EPA use to set up the brownfields program
              grants and what are the results to date?
          •   Has EPA identified or secured the necessary resources to effectively carry out
              the expanded brownfields program?

Results
          Although stakeholders were generally pleased during the first year of the
          brownfields program, EPA experienced a number of problems in implementing
          the program. EPA announced over $73 million in competitive assessment,
          revolving loan fund, and cleanup brownfields grants in Fiscal Year (FY) 2003.
          However, grant applicants and regions had the following concerns:

          •   Guidance to the regions was untimely and unclear.
          •   Grant applicants needed additional guidance.
          •   The grant process was too time consuming.
          •   The application review process limited regions' abilities to provide feedback.

          The Office of Brownfields Cleanup and Redevelopment responded to and
          addressed these concerns in FY 2003 and made progress in these areas. In
          addition, we noted issues that may create challenges in the future if not addressed
          in a timely manner. Specifically:

                                            i
         •   The applicant and site eligibility determination process lacked documentation.
         •   Deadlines for ownership of properties for some cleanup grant applicants were
             extended three times.
         •   Determining environmental performance of program remains questionable.
         •   Regions reported a lack of Brownfields travel funds, and one region made
             travel funds available for use in other programs.

         We found that the Congressional authorizations to carry out the brownfields
         program fell short of EPA's requests in both FY 2003 and 2004. Further, the
         workload model prepared to estimate the resources needed to implement the new
         program in FY 2003 only included the regions' resource needs. EPA did not use a
         model to estimate resources needed at headquarters or other support offices. Also,
         the workload model has not been updated to reflect the resources needed to
         implement the program in FY 2004. This limited workload model may prevent
         EPA from determining where brownfields resources are most needed.

Recommendations, Agency Comments, and OIG Evaluation
         We recommended that EPA require regions to clearly document the eligibility
         determination process, do not extend ownership deadlines, use data gathered from
         the Property Profile Form to establish performance goals, establish performance
         goals that separate the pilot and expanded program, and address issues related to
         travel funds. We also recommended that EPA develop a comprehensive workload
         model that reflects all staffing needs, and evaluate the sufficiency of the current
         workload model.

         In the response to our draft, EPA agreed with most of our recommendations.
         Based on the Agency's comments, we made some revisions and clarifications to
         our report where appropriate. In addition, based on a followup meeting with the
         Agency to discuss its comments, agreements were reached to resolve and clarify
         recommendations where we did not have complete agreement. A summary of the
         Agency's response and our evaluation is included at the end of each chapter. The
         Agency's complete response is included in Appendix D.

Further Research Needed
         During our evaluation, we identified several areas that need further research.
         These include the economic and environmental impacts of EPA's brownfields
         investments, the future adequacy of brownfields assessment and cleanup activities
         for all land uses, the extent to which Superfund liability clarifications versus
         brownfields grant funding impact brownfields redevelopment, the extent to which
         EPA can continue to meet legislative requirements, and the impact of brownfields
         investments on neighborhood gentrification and displacement of disadvantaged
         populations.


                                          ii
                                        Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


 Chapters
     1         Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   1
                    Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
                    Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
                    Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                3
                    Areas Needing Further Research . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     4

     2         Improvements Needed to Better Implement Brownfields Program . . . . . . . .                                                              5

                    EPA Announced Over $73 Million in Brownfields Grants in FY 2003 . . . . . . . . . . . . . .                                          5
                    EPA Expanded the Brownfields Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           7
                    OBCR Addressed Several Stakeholder Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  9
                    OBCR Needs to Address Additional Program Issues . . . . . . . . . . . . . . . . . . . . . . . . . .                                 11
                    Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     16
                    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           17
                    Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          17

     3         Information Not Sufficient to Determine Whether
               EPA Identified and Secured Necessary Resources . . . . . . . . . . . . . . . . . . . . . 19

                    OBCR and Regions Reported Increased Workloads . . . . . . . . . . . . . . . . . . . . . . . . . .                                   19
                    EPA Workload Analysis Not Comprehensive or Complete . . . . . . . . . . . . . . . . . . . . . .                                     20
                    Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     21
                    Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            21
                    Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          21




 Appendices
     A         OIG's Letter to the Chairman of the
               Committee on Energy and Commerce . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

     B         Brownfields Grants Announced in FY 2003 . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

     C         Brownfields Workgroups . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

     D         Agency Response to Draft Evaluation Report . . . . . . . . . . . . . . . . . . . . . . . . . 29

     E         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43


                                                                          iii
                                                      Tables

1-1:   Benefits of Small Business Liability Relief and Brownfields Revitalization Act . . .                             2
2-1:   Grants Announced in FY 2003 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      5
2-2:   Comparison of Guidance on Community Notification Requirements . . . . . . . . . . .                             10
2-3:   Applicants Eligible and Special Property Considerations . . . . . . . . . . . . . . . . . .                     12
2-4:   Selected Sites Eligibility Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   13
2-5:   2008 Brownfields Performance Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          15
3-1:   Resources Received for Brownfields Program . . . . . . . . . . . . . . . . . . . . . . . . . .                  19

                                                      Figures

2-1:   Regional Distribution of FY 2003 Brownfield Grant Dollars . . . . . . . . . . . . . . . . . . 6
2-2:   State Distribution of Brownfields Assessment, Cleanup,
           and RLF Grant Dollars in FY 2003 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
2-3:   Grant Application Process in FY 2003 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
2-4:   Untimeliness of FY 2003 Application Review Guidance . . . . . . . . . . . . . . . . . . . . 9
3-1:   Initial Grant Applications Reviewed Per FTE in FY 2003 . . . . . . . . . . . . . . . . . . . 20




                                                          iv
                                Chapter 1
                                 Introduction
Purpose

          In January of 2002, the President signed the Small Business Liability Relief and
          Brownfields Revitalization Act. Under this Act, the Office of Inspector General
          (OIG) of the Environmental Protection Agency (EPA) has a mandate to report on
          the management of the brownfields program no later than 2005. This mandate
          specifies that the OIG evaluation focus on §104(k) (Subtitle A) of the
          Comprehensive Environmental Response, Compensation, and Liability Act
          (CERCLA, or Superfund), which authorizes EPA increased funding to award
          assessment, cleanup, and revolving loan fund (RLF) grants. This review is part of
          the EPA OIG's mandated review (see Appendix A). At the time we initiated our
          review, the brownfields grant application process had just begun, grants had not
          yet been awarded, and complete results from the first round of grants were not
          available for our review. Consequently, this report focuses on EPA's
          implementation of the Act, specifically Subtitle A. This is the first of two reports
          in response to the mandate; our second report will provide more information on
          the management of brownfields grants. These two reports represent, in entirety,
          EPA OIG's work in response to the mandate.

          For this review, we addressed the following questions:

          •   How has the brownfields program implementation effort proceeded during the
              first year and how effective has it been in instituting major program
              components? What process did EPA use to set up the brownfields program
              grants and what are the results to date?

          •   Has EPA identified or secured the necessary resources to effectively carry out
              the expanded brownfields program?

Background

          EPA Brownfields Work Prior to 2002 Act

          EPA established the Brownfields Initiative in 1995 with the goal of enabling
          States and communities to work together to assess, safely clean up, and
          sustainably reuse brownfields. EPA had defined brownfields as abandoned, idle,
          or underutilized industrial or commercial properties where expansion or
          redevelopment is complicated by real or perceived environmental contamination.
          While there has not been a precise count of the number of brownfields sites in the
          United States, estimates range from 450,000 to as many as a million. Under the

                                            1
                initiative, EPA awarded 554 grants for assessing brownfields and assessed over
                4,000 properties. As an EPA report to stakeholders indicates, "Since 1995, EPA's
                investment, nearly $700 million, in the Brownfields Program has leveraged
                $5.09 billion in brownfields cleanup and redevelopment funding from private and
                public sectors, and helped to create more than 24,920 new jobs for citizens in
                brownfields communities."

                Liability provisions in CERCLA have complicated redevelopment of brownfields.
                Uncertainty about cleanup liability is a disincentive to property developers, and
                has halted many brownfields efforts.

                Small Business Liability Relief and Brownfields Revitalization Act

                The Small Business Liability Relief and Brownfields Revitalization Act amended
                CERCLA, created a new environmental program that fosters brownfields
                redevelopment, and authorized Congress to appropriate up to $250 million per
                year through Fiscal Year (FY) 2006 to implement the new program. Congress
                also changed the definition of brownfields to "real property, the expansion,
                redevelopment, or reuse of which may be complicated by the presence or potential
                presence of a hazardous substance, pollutant, or contaminant."

                The Small Business Liability Relief and Brownfields Revitalization Act has three
                subtitles. Each of the subtitles, their primary provisions, and some benefits of
                each are shown in Table 1-1.

          Table 1-1: Benefits of Small Business Liability Relief and Brownfields Revitalization Act

          Subtitle A                               Subtitle B                            Subtitle C
      Brownfields Funding                    Liability Clarifications            State Response Programs

Increases funding authority up to      Clarifies Superfund liability for     Authorizes up to $50 million per
$200 million per year for grants and   prospective purchasers, innocent      year for building and enhancing
technical assistance programs          landowners, and contiguous            State and Tribal response
                                       property owners                       programs, and expands activities
Provides grants for assessments,                                             eligible for funding
Revolving Loan Funds (RLFs), and       Provides liability protection for
direct cleanups                        certain small volume contributors,    Provides protection from Superfund
                                       and contributors of municipal solid   liability under sites cleaned up
Expands the entities, properties,      waste                                 under State program
and activities eligible for the
brownfields grants                                                           Preserves the Federal safety net by
                                                                             detailing circumstances where EPA
Provides authority for brownfields                                           can revisit a cleanup
training, research, and technical
assistance grants                                                            Clarifies State role in adding sites
                                                                             to the Superfund National Priorities
                                                                             List




                                                        2
Scope and Methodology

         We conducted our evaluation from March 2003 to February 2004, in accordance
         with Government Auditing Standards, issued by the Comptroller General of the
         United States. We reviewed Subtitles A and C of the Act, but concentrated on
         Subtitle A because the Act's mandate specifies an OIG review of Subtitle A. Our
         review included the assessment, cleanup, and RLF grants issued under Subtitle A.
         Our review did not examine the job training grants or training, research, and
         technical assistance grants awarded under Subtitle A, or State and Tribal
         Response grants awarded under Subtitle C. Appendix B notes the quantity and
         dollar value of the grants award in these areas. We interviewed a range of
         individuals within EPA. We interviewed the Office of Brownfields Cleanup and
         Redevelopment (OBCR), which is EPA's lead office for the brownfields program,
         part of EPA's Office of Solid Waste and Emergency Response We also selected
         for review and interviewed Regions 5, 8, and 9, based on the number of grant
         applications received in FY 2003 and the number of brownfields full-time
         equivalents, both indicators of the size of the regional brownfields program.

         In addition, we interviewed applicants from the FY 2003 grant process who were
         successful in getting a grant, applicants who withdrew from the process, and
         applicants who did not get a grant, to get their perspective on the grant application
         process. We also interviewed interested stakeholders to get their perspectives,
         including the National Association of Home Builders, National Association of
         Local Governmental Environmental Professionals, and Association of State and
         Territorial Solid Waste Management Officials.

         We tested how EPA determined the eligibility of grant applicants by judgmentally
         selecting six of the approved FY 2003 grants. We reviewed EPA databases and
         other publicly available information sources to determine eligibility. We did not
         review the full grant application files for each applicant tested.

         We reviewed the Office of Management and Budget's Program Assessment
         Rating Tool assessments for the 2005 Budget (as of February 2004). Using this
         tool, the Office collaborated with other Federal agencies to assemble criteria on
         program performance and management, and establish high standards of
         performance for government programs. The brownfields program was reviewed
         for the FY 2004 Budget and received an overall rating of "adequate."




                                           3
Areas Needing Further Research

         During our evaluation, we identified several areas that we were unable to review
         but which we nonetheless believe need to be researched further. These include:

         •   Economic and environmental impacts of EPA's investments in newly
             awarded brownfields grants. While EPA has some data on pilot projects,
             not enough information has been obtained to date to determine the extent to
             which investments in brownfields have protected human health and the
             environment or are achieving desired results.

         •   Future adequacy of brownfields assessments and cleanup activities for all
             land uses. Environmental assessments and cleanup activities performed
             under brownfields grants may only restore land to a limited environmental
             quality, adequate for the then current redevelopment plan. It is unknown if the
             level of effort is adequate for future changes in land uses.

         •   Extent to which Superfund liability clarifications versus brownfields
             grant funding contribute to redevelopment. In the Small Business Liability
             Relief and Brownfields Revitalization Act, Congress authorized millions of
             dollars in grant funding and provided liability clarifications to reduce the legal
             and financial risks of redeveloping brownfields. We do not know if similar
             redevelopment levels would occur with only the liability clarifications and
             without grant funding or a specified level of grant funding.

         •   Extent to which EPA can continue to meet legislative requirements. The
             Small Business Liability Relief and Brownfields Revitalization Act requires
             EPA to award 25 percent of the available funding for assessments and
             cleanups to petroleum-contaminated sites. However, as such work progresses,
             it is uncertain if EPA will be able to continue to meet the 25 percent petroleum
             requirement.

         •   Impact of brownfields investments on neighborhood gentrification and
             displacement of disadvantaged populations. Gentrification involves new
             investments in deteriorated or aging parts of a city that raise property values,
             typically displacing existing disadvantaged populations. Some stakeholders
             were concerned that brownfields redevelopment may cause gentrification.




                                           4
                                     Chapter 2
       Improvements Needed to Better Implement
                Brownfields Program
              Although stakeholders were generally pleased during the first year of the
              brownfields program, EPA experienced a number of problems in implementing
              the program. EPA announced over $73 million in competitive assessment, RLF,
              and cleanup brownfields grants in FY 2003. However, grant applicants and
              regions noted the following concerns:

              •   Guidance to the regions was untimely and unclear.
              •   Grants applicants needed additional guidance.
              •   The grant process was too time consuming.
              •   The application review process limited regions' abilities to provide feedback.

              OBCR, the lead office for implementing the brownfields program, responded to
              and addressed these concerns in FY 2003 and made progress in those areas. In
              addition, our review noted the following additional issues with the program that
              may create challenges in the future if not addressed in a timely manner:

          •       The applicant and site eligibility determination process lacked documentation.
          •       Deadlines for ownership of properties for some cleanup grant applicants were
                  extended three times.
          •       Determining environmental performance of program remains questionable.
          •       Regions reported a lack of Brownfields travel funds, and one region made
                  travel funds available for use in other programs.

EPA Announced Over $73 million in Brownfields Grants in FY 2003

          EPA announced over $73 million in brownfields assessment, cleanup, and RLF
          grants in FY 2003, as shown in Table 2-1:

                            Table 2-1: Grants Announced in FY 2003
                         Type of Grant      Quantity      Value (millions)
                     Assessment                117             $30.7
                     Cleanup                    69              12.0
                     RLF                        28              30.4
                                               214             $73.1




                                               5
Appendix B contains more detailed results from the brownfields program by
including the job training grants; the training, research, and technical assistance
grants; and the State and Tribal Response Program grants.

The number of brownfields grants announced in FY 2003 varied by EPA region
and State. Region 5 received the most grant dollars and Region 6 the fewest.
Michigan and California both received over $5 million in grant funding, more than
any other State. Figure 2-1 illustrates the distribution of assessment, cleanup, and
RLF grant dollars by region, and Figure 2-2 shows distribution of grant dollars by
State.


      Figure 2-1: Regional Distribution of FY 2003 Brownfield Grant
                                  Dollars


25000000

20000000
                                                                    RLF Grants
15000000
                                                                    Cleanup
                                                                    Grants
10000000
                                                                    Assessment
                                                                    Grants
  5000000

         0
             1   2    3   4   5    6   7    8   9   10
                              Region




                                   6
                   Figure 2-2: State Distribution of Brownfields Assessment,
                         Cleanup, and RLF Grant Dollars in FY 2003




EPA Expanded the Brownfields Program

         EPA created OBCR in July 2002 to take the lead in implementing the brownfields
         program. The new legislation expanded EPA's previous efforts in the brownfields
         arena, offering new opportunities for grant funding, expanding the assistance
         available to States and tribes for brownfields response programs, and offering new
         liability protections for contiguous property owners and prospective purchasers of
         brownfields properties. Accordingly, OBCR created the programmatic framework
         to establish the expanded brownfields program, including:

         •   Guidelines for the new grant application process.
         •   Guidance for EPA regions concerning the new legislation.
         •   Guidance on various legal issues raised by the new legislation.
         •   Performance measures for the new program.



                                           7
A full contingent of cross-agency representatives, including OBCR, created nine
workgroups that were responsible for developing 35 guidelines, guidance
documents, and actions to implement the legislation. By December 2003, the
workgroups had completed all but five of the steps to implement the legislation.
Appendix B is a listing of the policies created and actions taken to implement the
Small Business Liability Relief and Brownfields Revitalization Act, including
those policies that have not yet been completed.

OBCR used a two-step application process (initial and final) to award assessment,
RLF, and cleanup grants in FY 2003, as shown in Figure 2-3.


       Figure 2-3: Grant Application Process in FY 2003




The grant applicants and stakeholders we
interviewed were generally pleased with the          Stakeholders interviewed
implementation of the brownfields program            generally pleased
in FY 2003. The grant applicants found EPA
staff both accessible and helpful during the application process. We also
interviewed representatives from the National Association of Home Builders and
the National Association of Local Governmental Environmental Professionals,
who were both impressed with the implementation of the brownfields program.
The representative from the latter stated that assessment and cleanup funding

                                 8
         available through EPA's brownfields program is a "tremendous" benefit for
         communities, enabling them to jumpstart redevelopment in areas from which the
         representative said developers traditionally strayed.

OBCR Addressed Several Stakeholder Concerns

         Although OBCR experienced problems in implementing the Small Business
         Liability Relief and Brownfields Revitalization Act in FY 2003, they addressed
         many of the concerns of grant applicants and regions for FY 2004. Details follow.

         Guidance to EPA Regions Untimely and Unclear in FY 2003

         Brownfields staff from Regions 5 and 9 noted that guidance regarding the review
         of brownfields grant applications was late in FY 2003. The regions did not receive
         final guidance on the application review process until 5 days before the reviews
         were due to OBCR, as shown in Figure 2-4.


            Figure 2-4: Untimeliness of FY 2003 Application Review Guidance


                    Dec. 16, 2002        Dec. 23, 2002    Jan. 24, 2003    Jan. 29, 2003
                    Initial applications OBCR sends       OBCR sends       Regional scores
                    due to Regions       draft guidance   final guidance   due to OBCR
                                         to Regions       to Regions




                         December                               January


         Regional staff also stated that their roles and responsibilities in the grant
         application review process were unclear in FY 2003. For example, while the Small
         Business Liability Relief and Brownfields Revitalization Act restricts funding for
         petroleum sites to those that are of low risk and have no viable responsible party,
         Region 5 counsel said they were unsure who had the primary responsibility of
         determining the eligibility of such sites. Staff at Region 8 who were contacted by a
         grant applicant for clarification of "viable responsible party" were unable to assist
         the applicant.

         In addition, Region 5 counsel said that they were uncertain of their role in the
         brownfields program in FY 2003 and needed more guidance from OBCR. The
         FY 2003 application review guidance did not specify when regional counsel should
         be involved in the review process, only that they participate in a "timely and
         appropriate manner." Region 5 waited until late in the review process to involve

                                              9
            regional counsel and, as a result, counsel had only 10 days to review approximately
            100 grant applications.

            OBCR improved the timeliness and clarity of the guidelines and guidance issued
            for EPA regions for FY 2004. In contrast to guidance published in FY 2003, the
            final FY 2004 grant application review guidelines were issued the same day that
            grant applications were due to the regions, giving the regions adequate time to use
            the guidance while reviewing applications. OBCR also clarified the FY 2004
            application review guidance to better define the roles of EPA regions in making
            petroleum eligibility determinations and the roles of regional counsel in the
            application review process.

            Grant Applicants Needed Additional Guidance in FY 2003

            Seven of the nine grant applicants interviewed had questions about the application
            process that were not answered in the application guidelines or guidance. Issues
            for which the grant applicants needed additional clarification included site
            eligibility, site control, community notification, viable responsible parties, and
            administrative costs. For example, as noted above, a grant applicant for a
            petroleum site in Region 8 was unclear on what was a "viable responsible party."

            OBCR clarified and expanded the guidance in the FY 2004 application guidelines.
            Table 2-2 shows expanded guidance regarding community notification.

        Table 2-2: Comparison of Guidance on Community Notification Requirements

       FY 2003                                            FY 2004

"Describe how the        "Describe how the targeted community(ies) was/were notified of the
community was notified   preparation and submission of this grant proposal and provided opportunity
of the preparation and   for public comment prior to submitting this proposal. This may include
submission of this       putting a notice of availability in the local newspaper or other widely
proposal."               available/accessible local media asking for public comment. Notifications
                         must be current and related to this specific proposal being submitted for
                         consideration. Failure to demonstrate community notification will result in
                         failure of this application. Applicants who are submitting more than one
                         proposal may opt to have a single community notification. However, all
                         targeted communities must receive the notification and be provided an
                         opportunity to comment on the proposal(s) relevant to their community."




            While we cannot determine whether the expanded guidance helped grant applicants
            better understand the application process in FY 2004, we believe the effort was
            appropriate. It should be noted that our review of OBCR's efforts to improve the
            guidelines and guidance for brownfields grants in FY 2004 was limited to
            anecdotal evidence provided; we did not comprehensively review every action
            taken by OBCR.


                                              10
         FY 2003 Grant Process Too Time Consuming

         Nearly all of the individuals we spoke to (OBCR, the three regions, and seven of
         nine applicants) reported that the grant application and review process was too time
         consuming in FY 2003. OBCR reported that EPA was overwhelmed during the
         application and review process. The regions we visited indicated that reviewing
         two separate proposals was time-consuming and diverted time and resources from
         other staff responsibilities. Applicants also said the two-step process was too
         time-consuming. Based on feedback from regions and other stakeholders, OBCR
         streamlined the application process, requiring only one application in FY 2004.

         Review Process Limited Regions' Abilities to Provide Feedback

         In FY 2003, two of the three regions were unable to provide informed feedback to
         grant applicants. Regions did not perform the final review of applicants from their
         regions; these reviews were performed by other regions, to provide fairness in
         scoring. However, while some reviewers identified the strength and weaknesses of
         applications, others only provided a numeric score. Consequently, the regions
         were not always able to provide applicants with informed feedback. The one-step
         application process initiated in FY 2004 permits regions to review applications
         from their own regions. In addition, in December 2003, OBCR held training for all
         regional brownfields staff on how to provide meaningful comments on evaluation
         sheets, and noted the need to identify strengths and weaknesses to assist regions in
         providing feedback to unsuccessful applicants.

OBCR Needs to Address Additional Program Issues

         Although OBCR responded to and addressed many region and applicant concerns
         in FY 2003, additional challenges need to be addressed to improve the
         implementation of the Small Business Liability Relief and Brownfields
         Revitalization Act. Details follow.

         Eligibility Determination Process Lacked Documentation

         The process used to determine site and applicant eligibility in the three regions
         reviewed was neither transparent (clearly defined) nor sufficiently documented.
         Moreover, a cursory review of six grantees indicated that some of the properties
         may be ineligible according to the exclusions of the Small Business Liability Relief
         and Brownfields Revitalization Act. Personnel in the three regions reviewed were
         not able to clearly define the process that they used to determine site and applicant
         eligibility or the sources of information they used to make the determinations.

         The Small Business Liability Relief and Brownfields Revitalization Act specifies
         that only certain entities and properties are eligible to receive brownfields grants
         (see Table 2-3). OBCR provided regions with multiple forms of guidance to help

                                          11
                in determinations, but does not require regions to identify or document the sources
                used to make eligibility determinations. The guidance included a memo on the
                review process, a list of entities eligible to receive funding, and a flow chart to help
                determine site eligibility. The guidance directed the brownfields staff to work with
                regional counsel in making eligibility determinations. In addition, the Office of
                Enforcement and Compliance Assurance performed an enforcement screen of over
                600 grant applicants to provide data regarding the applicant's general
                environmental compliance history.

                  Table 2-3: Applicants Eligible and Special Property Considerations
                                          Eligible for Funding with a
        Eligible Applicants                                                        Not Eligible for Funding
                                       Property-Specific Determination

General purpose unit of local       Facilities subject to planned or ongoing    Facilities listed or proposed for
government                          removal action under CERCLA                 listing on the National Priorities
                                                                                List
Land clearance authority or other   Facilities to which a permit has been
quasi-governmental authority        issued by United States or authorized by    Facilities subject to a unilateral
                                    a State under the Resource                  administrative order,
Government created by the State     Conservation and Recovery Act (RCRA),       administrative order, court order,
                                    Federal Water Pollution and Control Act,    administrative order on consent,
Regional council or general         Toxic Substances Control Act, or Safe       or a judicial decree issued or
purpose units of local government   Drinking Water Act                          entered into by parties under
                                                                                CERCLA
Redevelopment Agency chartered      Facilities subject to RCRA orders
or otherwise sanctioned by a        requiring corrective action                 Facilities subject to the
State                                                                           jurisdiction, custody, or control of
                                    Land disposal units that have submitted     the U.S. Government, except for
State                               a RCRA closure notification or that are     land held in trust by the United
                                    subject to closure requirements specified   States for an Indian tribe
Indian Tribe other than in Alaska   in a closure plan or permit

Alaskan Native Regional             Portions of facilities where there has
Corporation, Alaskan Native         been a release of Polychlorinated
Village Corporation, and            Biphenyls (PCBs) and is subject to Toxic
Metlakatla Indian Community         Substances Control Act remediation

Nonprofit organization              Facilities receiving monies for cleanup
(cleanup only)                      from the Leaking Underground Storage
                                    Tanks trust fund




                We reviewed the eligibility of six judgmentally selected grantees. We used EPA
                databases, including the Comprehensive Environmental Response, Compensation,
                and Liability Information System (CERCLIS) and the Online Tracking Information
                System (OTIS), as well as other publicly available information sources, to search
                enforcement and compliance data for site and applicant eligibility information.
                The databases allowed an initial screen on some eligibility exclusions. CERCLIS
                is a Superfund database that also contains information on existing and potential
                hazardous waste sites. OTIS is an EPA enforcement database that allows States
                and Federal Agencies to search enforcement and compliance data. Based on our
                review, it appeared that some of the properties may be ineligible according to the

                                                       12
               exclusions listed in the Small Business Liability Relief and Brownfields
               Revitalization Act. Table 2-4 summarizes the results of our review. Four of the
               applicants received cleanup grants for hazardous substances, while the other two
               (Nome and Multnomah County) received cleanup grants for petroleum.

                            Table 2-4: Selected Sites Eligibility Review
     Site / Applicant          Grant                         Potential Eligibility Issues

Canton, Illinois              $200,000    Subject to planned or ongoing removal action under CERCLA
International Harvester
Site

Trenton, New Jersey           $200,000    Subject to planned or ongoing removal action under CERCLA
Magic Marker Site
                                          Subject to a unilateral administrative order, administrative order,
                                          court order, administrative order on consent, or a judicial decree
                                          issued or entered into by parties under CERCLA

Gloucester, New Jersey        $200,000    Subject to planned or ongoing removal action under CERCLA
Vanguard Vinyl Site
                                          Subject to an administrative order on consent, under CERCLA

Nome, Alaska                  $193,692    Subject to the jurisdiction, custody, or control of the U.S.
Block 21 of the Nome                      Government, except for land held in trust by the United States for
Airport                                   an Indian tribe

Oakland Redevelopment         $200,000    Facility to which a permit has been issued under RCRA, which
Agency, California                        requires a property specific determination
Uptown Site

Multnomah County,             $200,000    Facility receiving monies for cleanup from the Leaking
Oregon                                    Underground Storage Tanks trust fund, which requires a
Grocery/market Site                       property specific determination



               Deadlines for Ownership of Cleanup Grants Were Extended

               EPA extended the ownership deadlines for cleanup grants because 20 of the 69
               selected grantees were not able to gain site ownership by the end of FY 2003. The
               FY 2003 Proposal Guidelines stated that cleanup grant applicants must have
               ownership of the site "by time of award," but no date was specified. Twenty
               cleanup grant recipients did not own the site by the end of FY 2003; therefore, the
               Associate Assistant Administrator for the Office of Solid Waste and Emergency
               Response extended the ownership deadline three times.

               Opportunities for other eligible applicants may be reduced if money is held for
               some selected applicants to gain title. The funds could have gone to other qualified
               applicants who could have used the money immediately to clean up brownfields.
               Also, extending the ownership deadlines is a drain on brownfields resources, since
               staff must continue to communicate with the grantees to ensure they are doing
               everything they can to obtain ownership. OBCR recognized the problems created
               by extending the deadlines and explicitly stated a deadline date (September 30,


                                                 13
2004) for property ownership in the FY 2004 guidelines, but OBCR could not
ensure that the deadlines would not be extended in the future.

Determining Environmental Performance of the Brownfields Program
Remains Questionable

In an OIG May 2002 memorandum on Brownfields performance measures, we
noted that EPA's brownfields performance measures did not indicate EPA's
progress in reducing or controlling risks to human health and the environment. We
stated that EPA could identify short-term or intermediate outcome measures of the
environmental benefits of brownfields, including the acres remediated, acres
redeveloped, and population protected by cleanup actions.

In August 2003, the Office of Management and Budget approved EPA's Property
Profile Form, which will enable OBCR to report the environmental results of
brownfields grants. OBCR developed the form to collect data on the progress
made in the assessment, cleanup, and redevelopment of brownfields properties
through EPA brownfields grants issued under the expanded program. Using the
data from this form, EPA could report the following environmental results of
brownfields grants:

•   Acres of brownfields assessed and cleaned up (including dates).
•   Levels of site assessments completed.
•   Types of contaminants found.
•   Media affected by the contamination (water, groundwater, soil, etc.).
•   Classes of contaminants removed during cleanup (petroleum products, PCBs,
    etc.).

OBCR has begun to collect environmental performance data for brownfields
grants, but the environmental data are not reflected in EPA's current and future
objectives for the brownfields program. In addition, EPA's performance measures
for brownfields do not distinguish between results from grants issued under the
pilot program and grants issued under the expanded program. Details follow.

Unclear if EPA Will Use Data Collected to Report Environmental
Performance. Despite developing environmental performance data for the
expanded brownfields program, EPA does not appear to plan to use them to
measure the program's performance. The current objectives for the brownfields
program are, by 2008, to:

•   Assess, clean up, and redevelop 9,200 properties.
•   Leverage 33,700 jobs.
•   Leverage $10.2 billion in cleanup and redevelopment funding.

These objectives are almost identical to the 2003 brownfields performance
measures, which previously led us to observe that, "brownfields performance


                                14
measures do not contribute to understanding EPA's role in protecting human health
and safeguarding the environment." OBCR has made progress to collect
environmental data, but this is not incorporated in the current performance
objectives for the program.

Impacts of Pilot and Expanded Program Indistinguishable. EPA's
performance measures for brownfields combine results from grants issued under
the pilot program and grants issued under the expanded program. As seen in
Table 2-5, the 2008 performance goals are not solely from the expanded program,
but a combination of results from the pilot program and expected results from the
expanded program. Combining results from the expanded program and the pilot
program is not a transparent or reliable method for determining the impact or
effectiveness of either program.

                          Table 2-5: 2008 Brownfields Performance Goals

                                     Results           Expected Results from the       2008
                                   from Pilot           New Program, including     Performance
                                   Program1                Remaining Pilots           Goals

  Assess, clean up,
  and redevelop                        4,300                           4,900          9,200
  properties

  Leverage jobs                       24,900                           8,800         33,700

  Leverage cleanup
  and redevelopment                 $5.0 billion                  $5.2 billion     $10.2 billion
  funding
  1
      The results from the Pilot Program are as of 2nd quarter FY03.




We believe that the environmental data collected under the newly authorized
program will help EPA show the performance of the program, and should be
reflected in the current performance goals of the expanded program. The Small
Business Liability Relief and Brownfields Revitalization Act marked a significant
change in the program, substantially increasing the Government's investment in
brownfields and clarifying potential environmental liability issues. EPA should be
able to determine the added benefit achieved by the expanded program when
compared to the much less comprehensive brownfields' pilot program.

Regions Reported a Lack of Travel Funds

Regions 5 and 8 both reported that they had insufficient travel funds to carry out
the brownfields program in FY 2003, although for different reasons. Region 8
lacked the travel funds needed to conduct site visits because the region is large and

                                              15
         lacks convenient transportation networks. Region 5 Brownfields officials, on the
         other hand, were unsure how many travel dollars were available for brownfields-
         related travel during FY 2003 and were unable to conduct site visits.

         OBCR distributed $59,300 to Region 5 in FY 2003 for brownfields-related travel,
         but only $21,000 of that amount was spent for brownfields activities. Region 5
         pooled the remainder of the funds into a corporate account for use by other
         Region 5 programs. This Region 5 action appear to be inconsistent with OBCR's
         FY 2003 Brownfields Budget Guidance, which notes that the $27 million allocated
         for the brownfields program:

                 . . . are available only for administering the Brownfields
                 program. . . . The travel resources allocated for Brownfields are
                 considered part of the $27 million set aside for the Brownfields
                 program in the appropriations bill and should therefore not be
                 moved out of the Brownfields account or used for any other
                 program's travel."

         The OIG issued a memo to OBCR in December 2003 recommending that OBCR
         determine the degree to which Region 5 and other regions may be in violation of
         OBCR policies regarding use of brownfields travel dollars, and implement any
         necessary corrective action as expeditiously as possible. Further review of the
         issue by OIG Counsel determined that it is unclear whether OBCR has the
         authority to direct that the travel funds be used solely for brownfields activities and
         that clarification of that authority would be needed.

Conclusions

         EPA announced over $73 million in competitive assessment, RLF, and cleanup
         brownfields grants in FY 2003. Although the stakeholders we interviewed were
         generally pleased with EPA's expanded brownfields program in FY 2003, EPA
         encountered problems implementing the program. EPA addressed a number of
         those problems by improving the timeliness and clarity of its guidance and
         guidelines, streamlining the application process, and providing training. However,
         we found several issues that present challenges to the effective management of the
         program:

         •    EPA needs better documentation of the applicant and site eligibility
              determination process, to ensure transparency and that sites are eligible for
              funding.

         •    EPA should not extend ownership deadlines like it did in FY 2003, since it has
              at least the appearance of being unreasonable and potentially biased, and could
              have resulted in the unnecessary elimination of fully qualified applicants from
              the process.

                                            16
         •   EPA's ability to report on the environmental performance of the brownfields
             program remains questionable. EPA is making progress by collecting
             environmental performance data for brownfields grants, but the environmental
             data are not reflected in EPA's current performance goals for brownfields, nor
             are results of the expanded program separate from the results of the Pilot
             program.

         •   Since insufficient travel funds were reported in two of the three regions we
             spoke to, OBCR needs to clarify its authority and guidance regarding
             appropriate and inappropriate uses of allocated Brownfields travel funds.

Recommendations

         We recommend that the Acting Assistant Administrator for the Office of Solid
         Waste and Emergency Response:

         2-1.   Develop a process for sampling a portion of applicants to conduct a more
                detailed evaluation of the eligibility of the applicant for a Brownfields
                grant.

         2-2.   Do not extend the ownership deadlines for cleanup grants in FY 2004
                beyond the specified date of September 30, 2004.

         2-3.   Use the environmental data gathered from the Property Profile Form to
                establish performance goals for the expanded brownfields program that will
                allow EPA to report, at a minimum, the impact of the program on
                protecting human health and the environment.

         2-4.   Report performance goals and measures for the grants awarded under the
                expanded program that are separate from the results of the pilot program.

Agency Comments and OIG Evaluation

         The Agency generally agreed with the recommendations. In both its response and
         a followup meeting, the Agency agreed that documentation of applicant eligibility
         is important, but that based upon resource and time constraints, the regions could
         not extensively document eligibility determinations During the followup meeting,
         the Agency agreed to a recommendation to develop a process for sampling a
         portion of applicants or sites to conduct a more detailed evaluation of their
         eligibility. Also, the Agency provided necessary clarifications regarding our
         questions on the eligibility of six grantees, and in one instance, agreed that more
         documentation was needed regarding site eligibility.




                                          17
The Agency stated that it does not intend to extend ownership deadlines for
cleanup grants beyond the specified date of September 30, 2004. Also, in our
meeting with the Agency, the Agency clarified that the Brownfields Management
System can report program performance data separately for both the expanded
brownfields program and the Pilot Program. We encourage the Agency to use this
feature to report the performance of the expanded brownfields program apart from
the Pilot Program.

Our draft report included a recommendation that the Agency provide the source
authority regarding the use of Brownfields travel funds, determine whether
Region 5's use was appropriate, and the extent to which this practice occurred in
other regions in FY 2003. The Agency provided the source authority in its
response and indicated that it is addressing Region 5's use of travel funds, and will
examine the extent to which this practice occurred in other regions in FY 2003.
Based on this response, we dropped our recommendation.




                                  18
                               Chapter 3
    Information Not Sufficient to Determine Whether
   EPA Identified and Secured Necessary Resources
         The funding and staffing resources given to EPA to carry out the brownfields
         program for FY 2003 fell short of its request. OBCR and the regions reported
         greatly increased workloads in implementing the program. The workload
         necessary to select grantees and award grants reduced EPA's ability to oversee
         existing brownfields projects. EPA did not receive the brownfields resources
         requested in the President's Budget request for FY 2003, and according to an EPA
         official, the Agency did not receive the resources requested in President's Budget
         request for FY 2004. Further, EPA's workload analysis is not comprehensive or
         complete. To determine where brownfields resources should be placed, EPA
         prepared a regional workload model for FY 2003, but it did not include staff
         needed at headquarters or other support offices. Also, the model has not been
         updated for FY 2004. These limitations may prevent EPA from reliably
         determining where brownfields resources will be needed.

OBCR and Regions Reported Increased Workloads

         EPA was resource constrained and "overwhelmed" when implementing the
         program in FY 2003. While EPA received a significant increase in funding and
         full-time equivalents (FTEs) for carrying out the brownfields program in FY 2003
         compared with FY 2002, the amount was still significantly less than what was
         requested in the President's Budget request. There was also a significant shortfall
         in what was received versus requested in FY 2004. Details are in Table 3-1:

              Table 3-1: Resources Received for Brownfields Program (funding in millions)

                              Requested                Received                   Shortfall

             Year         Funding      FTEs       Funding      FTEs       Funding        FTEs

            FY 2003        $200         150        $166           127       $34               23

            FY 2004        $210         150        $170           127       $40               23



         At the regional level, Regions 5 and 8 reported that they did not have sufficient
         resources to carry out the brownfields program in FY 2003 and, in fact, had to
         borrow staff from other program areas (RCRA, underground storage tanks, and
         environmental justice). Region 9 also reported that their program was stretched in
         FY 2003 and that they too had used other staff to carry out the program. The


                                           19
         FY 2003 regional staff requested was 107.2, but the regions received 89.2, a
         17 percent reduction.

         Also, workloads were not the same in every region. Each region receives a different
         number of grant applications and manages differing numbers of brownfields pilots.
         Figure 3-1 illustrates one aspect of the workload variation: the distribution of
         regional brownfields staff was not proportional to the number of initial grant
         applications the regions reviewed in FY 2003.


                                          Figure 3-1: Initial Grant Applications Reviewed
                                                          Per FTE in FY03
                                     30

                                     25
              Applications per FTE




                                     20

                                     15

                                     10

                                      5

                                      0
                                               1

                                               2

                                               3

                                               4

                                               5

                                               6

                                               7

                                               8

                                               9

                                             10
                                            on

                                            on

                                            on

                                            on




                                            on
                                            on




                                            on

                                            on

                                            on

                                         on
                                        gi




                                         gi




                                         gi
                                        gi




                                        gi




                                        gi

                                        gi

                                         gi
                                        gi




                                       gi
                                      Re




                                      Re




                                      Re
                                      Re




                                      Re

                                      Re




                                      Re

                                      Re

                                      Re

                                     Re




EPA Workload Analysis Not Comprehensive or Complete

         The staffing workload model that EPA used to estimate the FTEs needed to
         implement the Small Business Liability Relief and Brownfields Revitalization Act
         only included regional staff needs and did not include the staff needed at
         headquarters (OBCR) or other offices that assist in implementing the expanded
         program (i.e., Office of General Counsel, Office of Enforcement and Compliance
         Assurance). OBCR was not able to identify the methods used to determine the
         number of FTEs needed at OBCR and other headquarters offices to implement the
         program. These FTEs represent 29 percent of the total FY 2003 request.

         In addition, EPA used the FY 2003 staffing workload model as the basis for staff
         requests in FY 2004. That model was based on data from the pilot program and not
         the expanded program, where more and additional kinds of grants were awarded.
         The FY 2003 workload model estimated staffing needs using factors such as the
         number of assessment, job training, and RLF pilots per region and the number of
         States per region. Since the workload analysis is mostly based on the pilot program,

                                                             20
         it does not include the new components of the expanded brownfields program. EPA
         has awarded more grants and new types of brownfields grants (i.e., cleanup grants)
         under the Small Business Liability Relief and Brownfields Revitalization Act. These
         changes are not accounted for in the model.

Conclusions

         It is unclear whether EPA's brownfields program is optimally staffed. EPA needs a
         comprehensive workload model that includes regional, headquarters, and support
         office staff to determine the appropriate number of FTEs and the appropriate
         distribution. EPA's workload model estimates only regional needs and does not
         account for the staff needed at headquarters (OBCR) and other support offices, even
         though the headquarters offices represent 29 percent of the FY 2003 FTE request. In
         addition, EPA's current workload model is based on assumptions from the
         brownfields pilot program rather than current information based on the requirements
         of the expanded program.

Recommendation

         We recommend that the Acting Assistant Administrator for the Office of Solid
         Waste and Emergency Response, in cooperation with EPA regions:

         3-1.   Evaluate the current workload model to determine whether the new demands
                and responsibilities of the expanded program require an updated workload
                model. Implement the updated workload model as needed.

Agency Comments and OIG Evaluation

         The Agency agreed to revisit the issue of adjusting the regional workload model and
         include the number of grant applications received by each region, if more FTE
         resources become available in the future. In the followup meeting, the Agency did
         not address the need to include the new responsibilities of the expanded brownfields
         program in the workload model. The Agency should consider the impact of the new
         responsibilities of the expanded brownfields program (i.e., cleanup grants) when
         revising the regional workload model.

         Our draft report included a recommendation that the Agency include estimates of
         staffing needs for all brownfields program headquarters activities. In its response, the
         Agency said that coordination with the Office of the Chief Financial Officer is
         necessary to determine brownfields resources not distributed by the Office of Solid
         Waste and Emergency Response. Based on this response and the fact that we are
         addressing broader issues related to Agency workload models in ongoing work, we
         dropped our recommendation.



                                            21
The Honorable W. J. Tauzin
Chairman
Committee on Energy and Commerce
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman,

The 2002 Small Business Liability Relief and Brownfields Revitalization Act (PL 107-118)
requires that the Environmental Protection Agency (EPA) Office of Inspector General (OIG)
report on the management of EPA's Brownfields program no later than 3 years after enactment
(January 2005). This letter provides a status report of our progress to date and anticipated future
actions.

Our office plans to issue the first of two reports in April 2004. Our April report will describe and
evaluate EPA's implementation of the program, including discussion of grants awarded,
completeness of implementation, and adherence to eligibility criteria. For the second report we
will perform an in-depth review of the competition process used to award the grants during the
first year of the program. Release of this report is planned for September 2004.

The General Accounting Office (GAO) has notified EPA that it is doing work, requested by
Chairman Davis and Representative Turner of the House Committee on Government Reform,
which may also be of interest to you. The information we have indicates that GAO will be
evaluating the overall effectiveness of the Brownfields program, including the grant program for
cleanup, as well as other facets of the program. Their work started in September 2003.




                                                 22
We appreciate the opportunity to inform you of our progress. If you have any questions you may
call me or Eileen McMahon, Assistant Inspector General for Congressional and Public Liaison,
at 202-566-2391.

                                           Sincerely,
                                             /s/
                                           Nikki L. Tinsley
                                           Inspector General

cc:
The Honorable John D. Dingell
Ranking Member
Committee on Energy and Commerce
U. S. House of Representatives
Washington, DC 20515




                                             23
                                                                       Appendix B



                  Brownfields Grants
                 Announced in FY 2003

                                                            Value
                Type of Grant                  Quantity
                                                          (millions)
Assessment                                       117       $30.7
Cleanup                                           69         12.0
Revolving Loan Fund                               28
Job Training                                      10          2.0
Training, Research, and Technical Assistance      19          2.2
State and Tribal Response                         83         49.7
Totals                                           326      $127.0




                                     24
                                                                                                            Appendix C
                                 Brownfields Workgroups
                  Workgroup                                                 Deliverables for 2003
Grants Funding Workgroup                               Public Meetings on 2003 Grant Funding
(K2 & K3 grants) (OBCR Lead)                           Guidelines
                                                       Final 2003 Grant Guidance
                                                       Final RLF Funding Transition Guidance
                                                       Final 2003 Job Training Guidelines
                                                       Final 2003 Guidance to Regions on Selection
                                                       Process
                                                       2003 Grant Selection

Brownfields Definitions and Exclusions                 Guidance on Definitions
Workgroup                                              Draft Guidance for Remediating PCBs and Brownfields
(OBCR, OPPTS Lead)                                      Final Guidance for Remediating PCBs and
                                                       Brownfields

Training, Outreach, and Technical                      Request for Proposals
Assistance Grants Workgroup                            Public Meeting
(K 6 grants) (OBCR Lead)                               Grant Selection

Enforcement/Liability Exemption                        Guidance on Bona Fide Prospective Purchasers
Workgroup                                              Final De Micromis Guidance
(OSRE Lead)                                            Interim Guidance on Common Elements
                                                       Interim Windfall Lien Guidance
                                                       Interim MSW Exemption Guidance
                                                       Revised De Minimis Settlement Models
                                                       Contiguous Property Owners Guidance
                                                       Interim Guidance De Minimis Settlement (122(g))
                                                           Revisions
                                                       Administrative Procedures for Windfall Liens

State and Tribal Funding Workgroup                     Final Funding Guidance for State & Tribal
(OBCR Lead)                                            Response Programs
                                                       Cooperative Agreement Negotiation

All Appropriate Inquiry Workgroup                      Convening Report
(OBCR, OERR, OSRE Lead)                                Public Meeting
                                                       FACA Regulatory Negotiation Committee Established

                                                       Final Rule on Interim Standards
                                                       Regulatory Negotiation to Develop the Proposed Rule
                                                       Development of Proposed Rule

Eligible Response Site Workgroup                       Final Guidelines on Eligible Response Site Exclusions
(OBCR, OSRE, OERR Lead)

Delegations/Executive Orders                           Executive Order
Workgroup                                              Delegations Package
(OBCR, OSRE, OERR, OGC Lead)

Data Quality/Management GPRA                           Performance Measures Meeting
Workgroup                                              Information Collection Request
(OBCR Lead)                                            Environmental Indicators/Performance Measures
Note: Data from EPA, Brownfields Legislation Workgroup Milestones, 12/17/03. Deliverables in italics are not yet completed.



                                                             25
        Agency Response to Draft Evaluation Report

                                          May 7, 2004


MEMORANDUM

SUBJECT:       OSWER Comments on OIG Draft Report "Substantial Progress Made, But
               Further Actions Needed in Implementing the Brownfields Program"
               Report No. 2003-708

FROM:          Marianne L. Horinko /s/
               Assistant Administrator
               Office of Solid Waste and Emergency Response

TO:            Carolyn Copper
               Director of Program Evaluation, Hazardous Waste Issues
               Office of Program Evaluation


        We appreciates the spirit of openness and cooperation that led to the creation of this
report. We thank you for the opportunity to work together on this report. The Office of Solid
Waste and Emergency Response (OSWER) worked closely with the Office of Site Remediation
Enforcement, which assists OSWER in the implementation of CERCLA liability provisions,
brownfield grant and loan eligibility, and related aspects of the Small Business Liability Relief
and Brownfields Revitalization Act of 2002, P.L. 107-118, in the development of comments on
the draft report.

        In accordance with EPA Manual 2750, we are submitting the attached written response to
the findings and recommendations presented in the draft OIG report, Substantial Progress Made,
But Further Actions Needed in Implementing the Brownfields Program (Report No. 2003-708).
Where appropriate we have identified corrective actions taken and/or planned in response to the
draft findings and recommendations.

       If you or your staff have any questions regarding our response, please contact
Linda Garczynski at (202) 566-2731 or Johnsie Webster, OSWER Audit Liaison, at
(202) 566-1912.

Attachment


                                                26
OSWER Response to OIG Draft Report "Substantial Progress Made, But Further Actions
Needed in Implementing the Brownfields Program"

The following document is organized with the IG's draft finding by chapter highlighted in bold,
followed by Office of Solid Waste and Emergency Response's (OSWER) comment.

General Comments

The report refers throughout to the Brownfields Revitalization Act. The full title of the law is the
Small Business Liability Relief and Brownfields Revitalization Act. Also, the report refers
throughout to Title A. The correct citation for the competitive grant program is CERCLA
§104(k).

Chapter 1 – Areas Needing Further Research

•      Economic and environmental impacts of EPA's investments in newly awarded
       brownfields grants. While EPA has some data on pilot projects, not enough
       information has been obtained to date to determine the extent to which investments
       in brownfields have protected human health and the environment or are achieving
       desired results.

Comment: EPA is interested in obtaining data on the economic and environmental impacts of the
brownfields grants, and to this end, created and received OMB approval of the Property Profile
Form. As noted by OIG, this is the first year that the Brownfields Program is using the Property
Profile Form to collect data from grant recipients. The Property Profile Form will provide EPA
with more detailed information on the direct economic and environmental impact of EPA
activities on a property-specific basis. Data will be collected on the Property Profile Form
regarding common contaminants and property size (e.g., acreage), which will inform EPA on
environmental effects from brownfields activities. The Office of Brownfields Cleanup and
Redevelopment (OBCR) anticipates that this data will provide a better measurement of program
results. We anticipate further evaluation after a full year of data collection to determine whether
and how to form environmental indicators.

Additionally, work is being done under EPA's brownfields training, research, and technical
assistance grants program under CERCLA §104(k)(6), which may yield information about
economic and environmental benefits derived from the assessment, cleanup, and Revolving Loan
Fund (RLF) grants programs. Projects currently underway in this grants program include:
research on area-wide approaches to brownfields redevelopment; training and technical
assistance to economic development officials; training and technical assistance workshops to
small and rural communities; and research and technical assistance related to environmental
insurance and the redevelopment of brownfields.

•      Future adequacy of brownfields assessments and cleanup activities for all land uses.
       Environmental assessments and cleanup activities performed under brownfields
       grants may only restore land to a limited environmental quality, adequate for the

                                                27
       then current redevelopment plan. It is unknown if the level of effort is adequate for
       future changes in land uses.

Comment: EPA is very concerned that brownfields assessments and cleanup activities are
adequate for future land uses, and that appropriate measures are in place to document any
restrictions on future land use. EPA is involved in a few distinct efforts to promote land use
controls as mechanisms for protecting human health and the environment for all future land uses.
For example, through the CERCLA 128(a) response program grants, States are required to track
institutional controls. Such tracking promotes viable long term stewardship for properties
entering State response programs. Also, EPA is including within the Brownfields Management
System (BMS) database information from §104(k) grantees to indicate where institutional
controls are put in place on brownfields properties. Lastly, EPA is negotiating a financial
assistance agreement with the International City/County Management Association (ICMA),
which competed successfully under the CERCLA 104(k)(6) competitive grant program, to
manage a web site on land use controls (LUCs.org), to make general information on land use
controls available to the non-Federal community.

•      Extent to which Superfund liability clarifications versus brownfields grant funding
       contribute to redevelopment. In the Brownfields Revitalization Act, Congress
       authorized millions of dollars in grant funding and provided liability clarifications
       to reduce the legal and financial risks of redeveloping brownfields. We do not know
       if similar redevelopment levels would occur with only the liability clarifications and
       without grant funding or a specified level of grant funding.

 Comment: The Office of Site Remediation Enforcement (OSRE) works closely with OBCR to
assist in the implementation of the CERCLA liability, brownfields grant and loan eligibility, and
related aspects of the Small Business Liability Relief and Brownfields Revitalization Act of
2002, P.L. 107-118. OSRE is coordinating with OBCR on the development of the BMS database
to track, among other things, information on how the Superfund landowner liability protections
are affecting the ownership of brownfield properties. OSRE has also recently established data
fields in CERCLIS to track the use of comfort status letters (including "reasonable steps" letters)
and windfall lien filings and resolutions to better understand the impact of these documents on
redevelopment. We appreciate the draft report recommendation for further research on this topic,
and OSRE will work to more fully evaluate additional ways of measuring the impacts of the
landowner liability protections on brownfield redevelopment.

•      Extent to which EPA can continue to meet legislative requirements. The
       Brownfields Revitalization Act requires EPA to award 25 percent of the available
       funding for assessments and cleanups to petroleum-contaminated sites. However, as
       such work progresses, it is uncertain if EPA will be able to continue to meet the 25
       percent petroleum requirement.

Comment: EPA witnessed strong interest in the use of brownfields grant funding for assessment
and cleanup of petroleum-contaminated sites in the first two years of implementing the
brownfields law. In Fiscal Year (FY) 2003, 102 of the 214 proposals selected for funding

                                                28
contained a petroleum component. There were 194 requests totaling $38M for petroleum-
related funding in FY 2004, far exceeding the 25 percent set-aside for funding. This is a result of
the continued outreach efforts by OBCR, the Office of Underground Storage Tanks (OUST), and
the EPA Regions to state and local authorities.

In addition to reaching potential applicants at various meetings and conferences held throughout
the year, several regional revitalization symposiums, including discussions focusing on
petroleum brownfields, are scheduled for the upcoming months. A few examples include:
‘Distressed Properties Forum', April 29 and 30, Kansas City; ‘Restoring Greenspace Conference',
June 23 and 24, Philadelphia; and the ‘Western Brownfields Workshop', July 13 thru 15, Seattle.
Additional outreach forums planned include: the Arizona Brownfields Conference, to be held in
late summer; the Region 5 Petroleum Brownfields Symposium, tentatively scheduled for late
June in Columbus, Ohio; and a Utah Symposium, whose date and location have yet to be
determined.

EPA has been promoting the availability of materials of interest to potential applicants such as
EPA's "Partnership Initiative for Reusing Petroleum Brownfields" (available on the EPA web)
and the City of Los Angeles' "Guide to Resolving Environmental and Legal Issues at Abandoned
and Underutilized Gas Station Sites." We anticipate these outreach efforts will promote
continued interest in grant funding for petroleum-contaminated brownfields and will allow EPA
to continue to meet the 25 percent petroleum requirement. OSWER will continue to monitor the
situation closely.

•      Impact of brownfields investments on neighborhood gentrification and
       displacement of disadvantaged populations. Gentrification involves new
       investments in deteriorated or aging parts of a city that raise property values,
       typically displacing existing disadvantaged populations. Some stakeholders were
       concerned that brownfields redevelopment may cause gentrification.

Comment: OSWER shares the concern with other stakeholders that brownfields redevelopment
may cause unintended impacts and believes that further research into this issue is warranted. The
EPA National Environmental Justice Advisory Council (NEJAC) is a federal advisory committee
that provides significant input from affected stakeholders on environmental justice issues. The
Unintended Impacts Workgroup of the NEJAC Waste and Facility Siting Subcommittee began
gathering information in the summer of 2002 to properly evaluate and weigh the impacts of
cleanup and redevelopment activities on communities. The Workgroup selected six communities
that have been examples of successful EPA sponsored/supported relocation, redevelopment, or
revitalization activities to determine, among other things, how "displacement" and/or
"gentrification" may be associated with brownfields redevelopment. Two of the communities
examined by NEJAC are brownfields grantees. Work on the draft report of the subcommittee is
underway, and is expected to be final by the end of 2004.




                                                29
Chapter 2 General Comments

•      p.7, Figure 2-1: Regional Distribution of FY 2003 Brownfield Grant Dollars

Comment: Figure 2-1 correctly lists the quantity of grants announced in FY 2003, and contains
the correct value, in millions of dollars, for Assessment and Cleanup grants. The dollar figure for
RLF, however, is overstated by one million dollars, the correct total value of the 28 new RLF
grants announced in FY 2003 being $30.4 million. The total value for the 214 new grants
announced in FY 2003 was $73.1 million. Additional references to the overstated total
announced figure of $74 million also appear on pp. i, iii, 6 and 18.

•      pp. 9, EPA Expanded the Brownfields Program

Comment: The report states that "OBCR created nine workgroups that were responsible for
developing 35 guidelines, guidance documents, and actions to implement the legislation." The
workgroup process was broader than just OBCR. A full contingent of cross-agency
representatives, not just OBCR, formed a steering committee of senior Headquarters and regional
offices and created nine workgroups. Attached is the most recent milestones information for
appendix B. New developments include the completion of contiguous property owner guidance
by OECA and the completion of agency review of the All Appropriate Inquiry rule. Please note
the activities on the chart span the time frame of 2002 - present and are grouped by the lead
workgroup on a particular activity/deliverable.

•      pp. 10- 11, Guidance to Regions Untimely and Unclear in FY 2003

Comment: We would note that, despite the late issuance of guidance in 2003, weekly conference
calls were held between the Regions and Headquarters offices over the course of several months
prior to and following the issuance of the guidance. The purpose of the conference calls was to
respond to questions and to discuss issues related to threshold and ranking criteria, regional and
national panel reviews, providing technical assistance, and several other topics that were
addressed in the guidance. The FY 2003 guidance summarized many of these discussions held
through November and December 2002.

OSWER and OECA agree with the general finding that, although the FY 2004 process memo
was an improvement over the previous year's effort, there are additional opportunities for
clarifying the roles and responsibilities in the brownfield grant and loan review and award
process. In addition to expanding and clarifying the guidance in the FY 2004 application
guidelines, as referenced on p. 11 of the draft report, several continuing activities are now in
place to ensure there is consistent and current dialogue within the program. For example,
Regional counsel, along with headquarters policy, legal and enforcement staff, continue to hold
periodic calls to discuss brownfields grant implementation issues.

Prior to issuing the FY 2004 guidance, we held a training session for the regions. We also held a
brownfields grants panel session at the Brownfields 2003 conference in Portland, OR. Prior to


                                                30
the national review of the FY 2004 proposals, we held a conference call training session for all
national reviewers.

In addition, for FY 2004, the Office of Underground Storage Tanks (OUST) conducted outreach
to regional underground storage tank (UST) staff regarding the petroleum eligibility
determination process during regular calls with the regional tank revitalization coordinators.
OUST also developed a fact sheet outlining the changes to the FY 2004 process. In turn, several
regional tank programs, in conjunction with their Brownfields and ORC counterparts, conducted
outreach conference calls with state staff to answer questions regarding the revised petroleum
eligibility determination process. For example, after the Region 5 outreach call, a member of the
UST staff developed a template for state staff to use to clearly and consistently document all
necessary petroleum eligibility determinations, that was distributed to all the regions. In
addition, OUST addressed the petroleum eligibility criteria during meetings with Association of
State and Territorial Solid Waste Management Officials (ASTSWMO) and EPA Regional UST
management. OBCR and OUST worked together to clarify any petroleum eligibility issues that
were subsequently raised by the regions (e.g., lack of timely state determinations).

OECA and OSWER will continue to work together to clarify the roles and responsibilities, and
clearly state the expectations of headquarters in implementing the consultation requirement,
including the consultation requirements related to the determinations of petroleum site eligibility,
in subsequent versions of agency guidance.

•      p. 14, Table 2-4: Selected Sites Eligibility Review

OSWER and OECA consulted with the Regions regarding the specific issues of site eligibility
raised in your report. Further clarifications are referenced below. While we agree that
documentation of site eligibility is important, the Agency's resources are limited. In cases in
which EPA has determined that the applicant has supplied adequate documentation of eligibility,
the value added by more extensive EPA generated documentation of eligibility is outweighed by
the administrative costs of developing that additional documentation. The first part of the
response below details the various site eligibility issues raised in your report and references the
sections in the grant guidelines that discuss these issues. These sections expand on the eligibility
summarized in Table 2-3 on page 13 of your draft report. The second part of the response below
describes the site eligibility issues surrounding the 6 sites included in Table 2-4 of the report.

Lastly, we would note that Chapter 2 of the draft report refers to the OECA enforcement screen
conducted as part of the FY 2003 grant process. The report incorrectly indicates that the
enforcement screen was conducted to ensure that applicants and sites were eligible for
brownfield grants and loans (page 13). The enforcement screen only provided data regarding the
applicant's general environmental compliance history and was intended to inform the decision to
award a grant or loan to an otherwise eligible applicant or site.

Facilities subject to CERCLA Removal Actions
Section 3.4.1 of Appendix 3 of the "Proposal Guidelines for Brownfields Assessment, Revolving
Loan Fund, and Cleanup Grants," outlines when properties subject to CERCLA removal actions

                                                31
are and are not eligible for brownfields funding. Properties that are subject to planned or on-
going removal actions may not receive funding, unless EPA makes a property-specific
determination of funding eligibility. Properties that were subject to CERCLA removal actions
and where removal actions are complete are eligible for funding. Section 3.4.1 of Appendix 3
states that "a removal action is complete when the actions specified in the action memorandum
are met, or when the contractor has demobilized and left the site (as documented in the ‘pollution
report' or POLREP). Once a removal action is complete, a property is eligible for brownfields
funding without having to obtain a property-specific funding determination."

Facilities that are subject to the jurisdiction, custody or control of the United States government
Section 3.4.7 of Appendix 3 of the "Proposal Guidelines for Brownfields Assessment, Revolving
Loan Fund, and Cleanup Grants," outlines when properties subject to the jurisdiction, custody, or
control of the United States government are and are not eligible for brownfields funding. Section
3.4.7 of Appendix 3 states that the exclusion does not "extend to: a. Privately-owned, Formerly
Used Defense Sites (FUDS); b. Privately-owned, Formerly Utilized Sites Remedial Action
Program (FUSRAP) properties; and c. Other former federal properties that have been disposed of
by the U.S. government." Section 3.4.7 also states that "eligibility for brownfields funding does
not alter a private owner's ability to cost recover from the federal government in cases where the
previous federal government owner remains liable for environmental damages."

RCRA Sites
Section 3.4.5 of Appendix 3 of the "Proposal Guidelines for Brownfields Assessment, Revolving
Loan Fund, and Cleanup Grants," outlines when properties subject to RCRA permits are and are
not eligible for brownfields funding. This section of Appendix 3 states that the types of RCRA
facilities that do not fall within the scope of the exclusion and would be eligible for funding
(without a property-specific determination) include "c. Parcels of RCRA facilities that are not
under the scope of a RCRA permit or administrative or judicial order."

Exclusion of Leaking Underground Storage Tank (LUST) Trust Fund Sites
Section 3.4.9 of Appendix 3 of "Proposal Guidelines for Brownfields Assessment, Revolving
Loan Fund, and Cleanup Grants," outlines when properties subject to the exclusion for LUST
Trust Fund Sites are and are not eligible for brownfields funding. In that section, the guidelines
state that properties may receive brownfields funding on a property-specific basis. Section 3.4.9
of Appendix 3 also points out that certain sites that previously received LUST fund monies are
considered to "be good candidates to receive brownfields grants or loans." Such properties
include "all USTfields pilots," and "sites (or portions of properties) where an assessment was
completed using LUST trust fund monies and the state has determined that the site is a low-
priority UST site and therefore additional LUST trust fund money cannot be provided for the
clean up of petroleum contamination, but the site still needs some clean up and otherwise is a
good candidate for economic revitalization."

1. Canton, Illinois / International Harvester: The draft audit report indicates that there are
issues relating to ongoing CERCLA removal action on part of the site and a Potentially
Responsible Party's involvement with the removal. There have been three removal actions at the
site, two fund-lead and one PRP-lead. Region 5 confirmed that the most recent removal action at

                                                32
this facility is complete and was documented in a Final Pollution Report (POLREP) issued in
May 2002. Although International Harvester, a potentially responsible party, was involved in the
removal action, the applicant's (the City of Canton) potential responsibility was resolved in a
prospective purchaser agreement signed with EPA in1999. The eligibility determinations are
specific to each proposal, applicant and site. In some cases, where the proposal does not
unequivocally indicate the eligibility of a particular applicant or site, the various EPA entities
involved in determining site and applicant eligibility consulted. Region 5 used its best
judgement based on the information contained in paragraph 3 of the prospective purchaser
agreement(PPA). They determined that the applicant and site were eligible, that a property-
specific determination was not needed, and that the activities proposed in their application were
allowable uses of funds because the PPA noted that the settling respondent (Canton) was
including federal funding of brownfields activities as their contribution to the agreement. In
addition, the PPA noted that the settling respondent in no way caused or contributed to the
release or threat of release of contaminants from the site and therefore was not a potentially
responsible party. Region 5 had email documentation of the deliberations regarding this issue.
Canton was therefore eligible for funding.

2 and 3. Trenton, New Jersey, Magic Marker Site, and; Gloucester, New Jersey, Vanguard
Vinyl Site: Regarding site eligibility, CERCLA §101(39)(B) excludes from the definition of a
Brownfields site certain facilities, including one that is the subject of a UAO, a court order, an
AOC or a CD that has been issued to or entered into by the parties under CERCLA.

For the Gloucester site, the AOC was entered into by EPA to have the PRP conduct the removal
and all obligations have been met. Attached to the grant application was a letter dated December
30, 1997 to Mr. Fred Bright of GAF Materials Corporation from Richard L. Caspe, Director of
Region 2's Emergency and Remedial Response Division documenting that work required
pursuant to the administrative order (AOC) was satisfactorily completed and EPA had received
GAF's reimbursement of costs. The PRPs have completed their obligations under the AOC and
the site was archived from CERCLIS in 2001. Therefore, Region 2 properly determined that the
Glouster site was eligible and the file contained adequate documentation of the Region's
determination given the Agency's resource limitations.

For the Trenton site, at the time of the application and award of the grant, no AOC, UAO or CD
had ever been issued. An agreement in principle for cost recovery has been reached very recently
with respect to the previously completed response action. Attached to the grant application was a
Final Pollution Report (POLREP) dated March 3, 1998 documenting that the removal action
conducted at the site was completed. Therefore, Region 2 properly determined that the Trenton
site was eligible and the file contained adequate documentation of the Region's determination
given the Agency's resource limitations.

Under CERCLA §104(k)(B)(i)(IV), no part of a grant can be used as a response cost at a
brownfield site for which the recipient may be liable under 107. For both sites, Region 2
determined that the applicants/grantees were not liable parties under 107 and therefore eligible to
receive grant funds. Both the Trenton and Gloucester site were acquired by the
applicants/grantees through tax foreclosure after the previous owners/operators had contaminated

                                                33
the properties. Moreover, the Gloucester grant application indicated that the applicant/grantee
had taken steps to prevent further releases and minimize exposure to the hazardous substances
present on the property. The Trenton applicant/grantee had undertaken activities, such as
demolition of the most hazardous buildings on site, undertaking a health initiative to screen
children for blood lead levels, and continual coordination with EPA and New Jersey Department
of Environmental Protection, to prevent further releases and minimize exposure to the hazardous
substances present on the property.

In both the Trenton and Gloucester cases, the grantee was not the liable party. EPA completed
removal actions at the sites many years ago and has no plans for further action, however, there
are some environmental concerns that remain which the grantees hope to address through the
Brownfields grants. Thus, EPA properly awarded cleanup grants to eligible applicants for
eligible sites and these awards did not violate any CERCLA requirements and were adequately
documented given the resources available.

4. Nome, Alaska, Nome Airport: The draft audit report indicates that there may be a potential
Federal facility issue at the property. The subject property is not under the direct jurisdiction of
the U.S. government. It is, as indicated in the grant application, a Formerly Used Defense Site.
The fact that contamination at the facility may have migrated from an off-site facility that is
under the jurisdiction of the U.S. government does not affect the eligibility of the applicant for
brownfields funding. The eligibility criteria in the statute only prohibit funding to properties
under the jurisdiction, custody, or control of the U.S. government. The grant application
provided adequate documentation of eligibility under that criteria. In addition, the fact that a
relocation decision on the part of a public utility may have played a role in the applicant's
decision to redevelop the subject property and apply for brownfields funding in no way affects
the applicant's eligibility or the eligibility of the property for brownfields funding. It's unclear
how Region 10 could have documented its disposition of issues that do not appear to be relevant
to its eligibility decision. Therefore, Region 10 properly determined that the Nome site was
eligible and the Agency's records contained adequate documentation of the Region's
determination given the resources available.

5. Oakland Redevelopment Agency, Uptown Site, Oakland, California: The draft audit
report states that one facility onsite, Sears and Roebuck, has a RCRA permit. The project area
for the revitalization effort includes 56 separate parcels, some, in fact, are ineligible for one
reason or another. ORA, the grantee, through communications with EPA Region 9 (including
email exchange with the EPA Project Officer), was aware from the beginning, before the award
was announced, that it was going to be able to use the grant monies for cleanup of only about 19
or 20 of the parcels. The Sears & Roebuck parcel, which is clearly marked on the site map of the
project area accompanying the grant application is not owned by the Oakland Redevelopment
Agency, and therefore this parcel is not included in the project area subject to the brownfields
grant, in accordance with the ownership requirements of CERCLA 104(k)(3)(A). Thus, despite
the existence of a state-issued RCRA permit, EPA never had to make a site-specific
determination of the parcel's eligibility because the parcel was never eligible, based on the fact
that it was not, and is not, owned by the grantee. Although one parcel in the project area is
subject to a RCRA permit, that does not render the other parcels ineligible for cleanup.

                                                 34
Therefore, Region 9 properly determined that the ORA uptown site was eligible, and the file
contained adequate documentation of the Region's determination given the resources available.

6. Multnomah County, Oregon, Grocery/Market Site: The draft audit report indicates that
there are questions concerning the use of LUST funds. LUST money was previously used at the
site and the applicant requested a property-specific determination to use brownfields funding for
additional petroleum contamination at site. The applicant also submitted all required information
to apply for a property-specific determination.

Region 10 evaluated information contained in the attachment to the grant and made a property-
specific determination. Region 10 determined that Grant funds were needed and would be used
to a) protect public health and the environment by cleaning up the site before more contaminant
exposure or migration occurs and b) would enable creation/addition to non-profit property,
specifically much-needed special needs housing for the physically handicapped that will be built
by the non-profit developer. Although the Multnomah County, Grocery/Market site was properly
eligible for a property specific determination, and the grant application provided adequate
information for the Region to reach its determination, we agree with OIG that the Region's grant
file should have contained more explicit documentation to support the property specific
determination.

Response to Chapter 2 Recommendations
2-1. Require Regions to clearly document the site and applicant eligibility determination
process and require that the documentation be part of the official application file.
Documentation should include, at a minimum, the source used (EPA database, Regional or
State information, etc.), the results of the search (even negative search results), and the date
the eligibility determination was made.

Comment: As noted above, while we agree with OIG that documentation of eligibility is
important, there are practical limits on the resources and time available to the Regions to
extensively document such determinations. Choices had to be made. In FY 03, EPA determined
that, because this was the first year the Agency would operate under the complex eligibility
criteria contained in the new Brownfields law, it was particularly important to document
determinations of ineligibility. This approach was intended to ensure that EPA would have
information that shows the basis for an ineligibility decision readily available in the event that the
applicant challenges the determination.

In grant programs throughout the Agency, where EPA determines that an application is eligible
for funding, the Agency generally relies on the representations made by the applicant to
document EPA's eligibility determination. In the absence of contradictory information in the
EPA's possession, this approach meets the minimum legal standard. The Agency maintains the
ability to recover inappropriately awarded funds under principles of grant law if the applicants
representations prove to be inaccurate. Nonetheless, we agree with OIG that the particular
eligibility criteria in the Brownfields law make it especially important to document site and
applicant eligibility determinations. For example, the December 4, 2003, process memorandum
for the FY 04 competition, emphasizes that it is the responsibility of each Region to maintain

                                                 35
good, substantive documentation of the results of its regional evaluation panel, including site and
applicant eligibility determinations.

The experience the Agency gained with the FY 03 application process will gain in the FY 04
process, and the constructive observations in this audit report, will help the Headquarters offices
(OBCR, OUST, OSRE and OGC) develop additional clarification of the standards and process
for documenting eligibility determinations. As we develop the guidance to the regions for the FY
2005 grant competition, we make a reference that the regions clearly document the site and
applicant eligibility determination process, which, at a minimum, must include the source used,
the results of the search, and the date the determination was made. We trust, however, that OIG
will accept the need for Agency management to make trade-offs between the resources and time
available to develop documentation and the administrative costs of more detailed processes and
procedures.

2-2. Do not extend ownership deadlines for cleanup grants in FY 2004 beyond the specified
date of September 30, 2004.

Comment: The FY 2004 Proposal Guidelines for Brownfields Assessment, Revolving Loan
Fund, and Cleanup Grants inform applicants of cleanup grants that they "must own the property
for which they are applying by the time the grant is awarded and no later than September 30,
2004." EPA has no intentions of extending this deadline for the FY 2004 brownfields grant
competition. We believe however, that the few applications for which we extended the 2003
deadline had extenuating circumstances that we thoroughly documented (e.g., a fire on the
Nome, Alaska property).

2-3. Use environmental data from Property Profile Form to establish performance goals
for the expanded brownfields program that will allow EPA to report, at a minimum, the
impact of the program on protecting human health and the environment.

Comment: The Brownfields Program is currently using the Property Profile Form to collect
performance information on the grants awarded under the Brownfields Law. The property profile
form allows the program to collect data on environmental indicators such as contaminants found
and addressed, media affected and addressed, acreage, and on the use of institutional controls.
Previously, the Program did not have comprehensive, uniform data in these areas. The
Brownfields Program will use the data collected from the Property Profile Form within this first
year to evaluate which elements should be used as environmental indicators for the program and
to determine appropriate targets.

In addition, the Brownfields Program is developing an efficiency measure for the Cleanup
Grants. The Brownfields Program is looking to measure program efficiency by examining the
period between the time of grant award and the completion of a property cleanup. We anticipate
this temporal measure will serve as an indicator of how efficiently the grant recipient achieves a
cleanup outcome. Since Cleanup Grants were first awarded in FY 2003, the Program is currently
collecting baseline performance information on these grants.


                                                36
2-4. Report performance goals and measures for the grants awarded under the expanded
program that are separate from the results of the pilot program.

Comment: The Brownfields Program is committed to maintaining performance data for the
expanded Brownfields Program created by the Brownfields Law separate from the Pilot Program
performance data. The Brownfields Management System (BMS) database has been redesigned
to achieve this distinction. The Program agrees that distinct program performance data for the
expanded program is essential to measure program progress.

In addition, the Program feels that the ability to combine the achievements of the Pilot Program
with the achievements of the Expanded Program provides a seamless measure of the progress
EPA has made in promoting the assessment, cleanup, and reuse of brownfields properties.

2-5. Identify the source authority for OBCR's memo stating travel funds must be used only
for administering brownfields. Based upon that source authority, determine whether the
Region 5 use of travel dollars was appropriate. If use is not appropriate, address the extent
of the problem within the Agency and take corrective action as needed.

Comment: We understand that Counsel to the OIG questioned the source authority for the
following statement in OBCR's FY 2003 Budget Guidance, contained in a Memorandum Dated
March 19, 2003, from Linda Garczynski, OBCR's Director and David Bloom, Director of
OCFO's Budget Division to Superfund National Program Managers and Brownfields
Coordinators (quoted below):

. . . are available only for administering the Brownfields program. . . The travel resources
allocated for Brownfields are considered part of the $27 million set aside for the Brownfields
program in the appropriations bill and should therefore not be moved out of the Brownfields
account or used for any other program's travel"

       The Environmental Programs and Management (EPM) account for EPA's fiscal year 2003
Appropriation Act, Public Law 108-7, states that the approximately $2.1 billion lump sum
appropriation for that account "include[es] administrative costs for the Brownfields program
under the Small Business Liability Relief and Brownfields Revitalization Act of 2002
(SBLRBRA)." The Conference Committee report for the 2003 Appropriation Act states that the
conferees agreed to certain "program levels" for the Agency including "$27,200,000 for the EPM
account's portion of the Brownfields program, an increase of $24,381,000 above the level
provided in fiscal year 2002."

        The March 19 memorandum reflects EPA funds control policy, which states that EPA
"will generally act in accordance with the views expressed in Conference Reports, Appropriation
Committee Reports, and other documents that reflect legislative history." Office of Comptroller
Resource Management Directive, Administrative Control of Appropriated Funds, p. 1-5 (July 1,
1997). As the Comptroller General observed, while failure to honor a Congressional committee
earmark may not rise to the level of a statutory violation, "this does not mean that agencies are


                                               37
free to ignore clearly expressed legislative history applicable to the use of appropriated funds." 55
Comp. Gen. 307, 325 (1975).

         The Agency's operating plan for Brownfields funding in FY 2003 also followed the
Conference Committee direction. OBCR agrees with the OIG that Region 5's use of Brownfields
travel funds OBCR sent to it for other purposes was inconsistent with Agency funds control
policies and the views of the Comptroller General. OBCR will examine the extent to which this
practice occurred in other regions. Moreover, EPA's FY 2004 Appropriation Act, Public Law
108-199, contains language in the EPM account for Brownfields administrative costs identical to
that in the FY 2003 statute. The Conference Committee report specifies an EPM program level
of $27,500,000 for "Brownfields administration." OCFO has advised OBCR that standard and
appropriate EPA funds control practice is to honor program levels in conference committee
reports. OBCR will reinforce the importance of respecting Congressional intent as the Regions
carry out the FY 2004 operating plan for the Brownfields program.

Chapter 3 Recommendations

p.23, EPA Workload Analysis Not Comprehensive or Complete

Comment: The parenthetical in the last sentence of the first paragraph of this section should read
as follows: "These FTEs represent 29 percent (approximately 45 of 154) of the total FY 2003
request"

3-1. Evaluate the current workload model to determine whether the new demands and
responsibilities of the expanded program require an updated workload model. Implement
the updated workload model as needed.

Comment: The Brownfields Regional FTE workload model was based upon data through the
end of FY 2001. Updating the Regions' workload model with grant selections through the end of
FY 2003 and grant applications received in FY 2004 does not significantly alter the allocation of
the Regional FTE. The variance between the updated and current workload model allocation
changes no Region's resources more than 3% for FY 2004. Therefore, OSWER is of the opinion
that the increase in grant applications does not demand a revision to the current workload model
at this time. Further, the program did not receive its requested FTE increase for FY 2004.
Should more FTE resources become available in FY 2005, OBCR agrees to revisit the issue of
adjusting the Regional workload model and including the number of grant applications received
by each Region.

3-2. Include estimates of staffing needs for all brownfields headquarters activities in the
current workload model.

Comment: The FTE levels for the Agency, and the Brownfields program, are determined during
the Agency's budget formulation process. All the Agency's programs, as well as new proposals,
are examined during this process. FTE levels are adopted after considering the purpose of the
programs, new program requirements, and budget constraints. OSWER believes the FTE

                                                 38
distributed to OSWER are thoroughly supported by an analysis of the range of functions
necessary to implement and manage the program. They are detailed below:

       1.      Policy development, legislative implementation, interagency coordination for the
               Brownfields Federal partnership, regulatory development, outreach to stakeholder
               groups, oversight of research cooperative agreements and other outside technical
               assistance, and preparation of materials for Congressional hearings and inquiries.

       2.      National brownfields budget formulation, OBCR budget execution, distribution of
               Regional funds, information management system execution and oversight,
               contract and website management, and strategic planning including the
               Government Performance Results Act (GPRA) and Program Assessment Rating
               Tool (PART).

       3.      Management of the national brownfields grant programs including application
               guidelines development, application reviews, responses to policy issues raised in
               applications, coordination of grants and related issues with the OGC, OECA,
               OUST, Office of Grants and Debarment (OGD) and the EPA Regions.

       4.      Coordination with State/Tribal response programs and consequent associations,
               development of national funding guidances for State/Tribal response programs,
               development of memoranda of agreement between EPA and the States, and
               environmental-justice related activities.

        We believe this broad range of activities exceeds current staffing levels and is fully
supported by the President's request for an increase in FTE level both in Headquarters and the
Regions. An increase is necessary to respond to all program-specific activities as well as the
usual managerial and administrative workload. However, as discussed during previous
interviews, the development of a workload model, when Congress has not given OSWER
additional resources, seems unnecessary. Use of a Regional workload model would be
inappropriate as a basis for comparison to Headquarters operations, due to the differing nature of
the functions performed by OSWER Headquarters.

       Other EPA Legal, Administrative and Resource Management offices provide legal and
administrative support, as well as, rent, utilities, and security costs related to the brownfields
program. These resources are not distributed by OSWER. Coordination with the Office of the
Chief Financial Officer (OCFO) is necessary to determine how these levels were determined.
According to OCFO, no FTE workload models exist for Headquarters operations.




                                                 39
                                                                              Appendix E

                                   Distribution


Office of the Administrator
Acting Assistant Administrator, Office of Solid Waste and Emergency Response (5103)
Director, Office of Brownfields Cleanup and Redevelopment
Comptroller (2731A) (2724A)
Agency Followup Official (the CFO) (2710A)
Agency Audit Followup Coordinator (2724A)
Audit Followup Coordinator, Office of Solid Waste and Emergency Response (5103)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator for Public Affairs (1101A)
Inspector General (2410)
Chairman, Committee on Energy and Commerce, U.S. House of Representatives
Ranking Member, Committee on Energy and Commerce, U.S. House of Representatives




                                            40
